 -program

D-
            D




 a proposal written by
 ,            entitled
                       f
                                       -
                       Closeout For M93120062




                                        -
                       , a program officer in t h r -




                                      -
                   in the Division of Mathematical Sciences, brought
 this case to OIG on December 3, 1993. The previous day, he had
 received a telephone call from b - c                 of the
                        (the complainant) who had been asked )toreview
                        -h                       of 4-wof
                                  (the subject) . The proposal was
                                                                    the

                                                                    The
 -scientist                               they both knew had previously
  sent the subject a manuscript on a similar topic and that the
  subject' s proposal contained ideas that derived from this
 manuscript.       The complainant alleged that the subject had
  incorporated these ideas into his own proposal without attribution.


 proposal.
     OIG informed the subject that it was alleged that he had
committed misconduct in science by using ideas original to the
manuscript author without giving him appropriate credit. In his
reply, the subject explained that his earlier proposal
0 entitled
                                                                 -
submitted more than a year before he received theother scientist's
manuscript. He said that this proposal contained the identical
language that was in his recent proposal and that had prompted the
allegation of misconduct in science. OIG examined the subject's
earlier proposal and verified that the language in question was
written before the subject had received the other scientist's
manuscript and cannot have derived from that manuscript.
      The subject also explained why he believed that the new ideas
 in the other scientist's manuscript were not relevant to his recent
 proposal and did not need to be cited. OIG determined that the
 subject's decision not to cite the manuscript appeared reasonable
 and that failing to cite it could not be considered a serious
 deviation from accepted practice.
      OIG's inquiry revealed that there was no substance to the
 allegation. This case is closed and no further action will be
 taken.
